TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Alternatives for Designing and
                     Developing the Filing and Payment
                  Compliance Project Should Be Revalidated



                                         December 2005

                              Reference Number: 2006-20-026




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 December 19, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Alternatives for Designing and Developing
                                the Filing and Payment Compliance Project Should Be Revalidated
                                (Audit # 200520015)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Filing and
 Payment Compliance (F&PC) project. The overall objective of this review was to determine
 whether the IRS had adequate justification for the alternative1 selected for the F&PC project.
 This audit, together with companion audits being conducted by the Treasury Inspector General
 for Tax Administration Office of Audit’s Small Business and Corporate Programs and
 Headquarters Operations and Exempt Organizations Programs, is providing coverage of this key
 IRS initiative.
 The IRS does not actively collect billions of dollars in delinquent taxes because it does not have
 sufficient staff, collection processes, or systems. The IRS initiated the F&PC project to address
 these shortcomings and increase collections. By implementing the F&PC project, the IRS
 expects to increase collections by $15.4 billion over 10 years and reduce the inactive delinquent
 tax case inventory. In 2004, the President signed the American Jobs Creation Act of 20042
 giving the IRS authority to enter into contracts with private collection agencies to pursue
 delinquent taxes. With this new authority, the IRS revised its plans for the F&PC project to
 include a process for identifying and routing delinquent tax cases to private collection agencies.




 1
   The IRS conducted studies to identify and evaluate several possible solutions to select the best alternative for
 designing and developing the project.
 2
   Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated




Synopsis
Twice a year, the Office of Management and Budget requires Federal Government agencies to
complete a Capital Asset Plan and Business Case (Exhibit 300) for each major information
technology investment. The Alternatives Analysis is a key component of the Exhibit 300. It
provides estimated cost and benefit information on viable alternatives to assist management in
determining the most effective approach for a project.
Since the passage of the American Jobs Creation Act of 2004, the IRS has made strides to
reactivate the F&PC project. The IRS has selected a solution and made progress in
implementing the first release. For example, IRS management has approved the first
F&PC project subrelease to move into the testing phase. While working toward completing
subrelease 1.1, the IRS is also initiating activities for subreleases 1.2 and 1.3. In addition, the
IRS identified and evaluated three alternatives to select the best solution for the project. The IRS
decided the best solution for the project was to purchase commercially available software.
While the information contained in the draft Exhibit 300 supports the IRS’ decision, we could
not verify the decision because documentation was not always accurate, complete, and timely.
Specifically, spreadsheets detailing cost and benefit calculations for each of the three alternatives
contained several errors, and the cost and benefit information used to prepare the draft
Exhibit 300 could not be supported. In total, the errors included in the spreadsheets understated
the net present value3 for 1 alternative by $1.338 billion and overstated the net present value for
another alternative by $8 million. In July 2005, we reported this issue to Business Systems
Modernization Office officials, who agreed with our conclusion and revised the spreadsheets.
These revisions significantly changed the financial indicators used to identify the best alternative
for the F&PC project and they added to the benefits of the chosen alternative. Therefore, the
revised financial indicators still support the IRS’ decision. Because the revisions were made
near the end of our audit work, we did not have the opportunity to review the documentation in
detail. However, we did note the IRS had not only made changes based on the errors we
identified, but it had also made changes to its methodology for calculating benefits.4
In addition, we determined the documentation provided as support for 87 percent of the costs and
benefits we reviewed ($16.1 billion of $18.5 billion) did not provide enough detail to verify the



3
  Net present value is a capital budgeting method that considers all discounted cash flows throughout the life cycle
of projects, allowing management to identify projects that have the greatest monetary returns.
4
  In response to a preliminary version of this report, the IRS stated the preparers of the draft Exhibit 300 made a
conscious business decision in some instances to not include benefits that may be viewed by outsiders as unrealistic
for the chosen alternative. A conservative approach was taken in order to avoid potential overstatement of the
benefits. The conservative approach was determined to be preferable to creating a net present value number that
may be viewed as unrealistic, or could create questions around the supportability of the number for the long-term.
                                                                                                                   2
                    The Alternatives for Designing and Developing the Filing and
                        Payment Compliance Project Should Be Revalidated



reliability of the information in the draft Exhibit 300. The PRIME contractor5 originally
prepared most of the estimates included in the draft Exhibit 300 in 2001 and 2002. The lack of
detailed supporting documentation occurred because the IRS did not obtain the information from
the PRIME contractor in 2001 and 2002, the PRIME contractor no longer has the supporting
documentation, and the IRS and its current contractors have not updated the original estimates.

Recommendation
We recommended the Chief Information Officer revalidate the Alternatives Analysis, develop
and maintain adequate documentation to support the IRS’ decision to purchase commercially
available software, and revise the Exhibit 300, if warranted. As part of the revalidation process,
we recommended the IRS perform a quality review of all supporting documentation for the
Exhibit 300 to ensure the reliability of the documentation.

Response
The Chief Information Officer agreed with our recommendation. An outside contractor will
perform a revalidation of the Alternatives Analysis, and the IRS and a contractor will perform a
quality review of supporting documentation of this analysis and the Exhibit 300. In addition, the
IRS has established a Vision and Strategy team that will assess its future modernization
collection strategy. If the results show a change in direction, the F&PC project team will modify
its approach to completing the Alternatives Analysis. Management’s complete response to the
draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




5
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.




                                                                                                             3
                        The Alternatives for Designing and Developing the Filing and
                            Payment Compliance Project Should Be Revalidated




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Made Progress in Implementing
          the First Release of the Filing and Payment Compliance Project.................Page 4
          The Internal Revenue Service Could Not Provide Adequate
          Documentation to Support Its Decision to Purchase Commercially
          Available Software........................................................................................Page 5
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Enterprise Life Cycle Overview............................................Page 16
          Appendix VI – Sample Results.....................................................................Page 21
          Appendix VII – Management’s Response to the Draft Report.....................Page 22
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated




                                            Background

In December 2004, the Internal Revenue Service (IRS) estimated that taxpayers owed
$278.6 billion in delinquent taxes, only $83.5 billion of which is considered potentially
collectible. However, the IRS does not actively collect billions of dollars in delinquent taxes
because it does not have sufficient staff, collection processes, or systems. The IRS initiated the
Filing and Payment Compliance (F&PC) project to address these shortcomings and increase
collections. By implementing the F&PC project, the IRS expects to increase collections by
$15.4 billion over 10 years and reduce the inactive delinquent tax case inventory.
The F&PC project is a multiyear effort that was initiated in 2001. At that time, the IRS planned
to implement commercially available software designed to identify the most appropriate
collection method for each collection case and to route the case to the appropriate collection unit
within the IRS. The IRS suspended the project due to funding concerns. In anticipation of a law
that would provide authority for the IRS to enter into contracts with private collection agencies
to pursue delinquent taxes, the IRS began plans for the Collection Contract Support project in
2003. Under this project, the IRS planned to identify and route simple collection cases to private
collection agencies for collection. The IRS received that authority in October 2004, when the
President signed the American Jobs Creation Act of 2004.1
With the passage of the American Jobs Creation Act of 2004, the IRS reactivated the
F&PC project and incorporated plans for the Collection Contract Support project. After
reactivating the F&PC project, the IRS identified and evaluated three alternatives to select the
best solution for the project. The IRS decided the best solution was to purchase commercially
available software.
The IRS plans to implement the F&PC project in three releases. The first release, known as the
Private Debt Collection release, will include the capabilities originally planned for the Collection
Contract Support project to route simple collection cases to private collection agencies. The
second release for the F&PC project will implement plans to route collection cases to the
appropriate collection units within the IRS Automated Call Sites2 and campuses.3 The third




1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 1
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated



release for the F&PC project will implement plans to route collection cases to the IRS Collection
Field function.4 Figure 1 presents the release schedule for the F&PC project.


                            Figure 1: F&PC Project Release Schedule


                          Release 1.1


                               Release 1.2


                                             Release 1.3


                                                           Release 2


                                                                  Release 3


                 2005         2006         2007        2008            2009     2010         2011

                                                      Years

              Source: IRS presentations.

The IRS has divided the Private Debt Collection release into subreleases. In August 2005, the
IRS completed efforts for milestones 3 (Business Systems Design and Baseline Business Case)
and 4A (Business Systems Development and Enterprise Deployment Decision) for release 1.1.5
As part of these milestones, the IRS developed a Capital Asset Plan and Business Case (Office of
Management and Budget Exhibit 300) and specific plans documenting how the project will be
managed.
Additional audits are being conducted by other Treasury Inspector General for Tax
Administration (TIGTA) business units. The first of these reported the Request for Quotation6
and subsequent amendment did not identify any material omissions adversely affecting the IRS’
ability to effectively manage this effort.7 Our initial audit objective was to review the


4
  A unit consisting of revenue officers who handle personal contacts with taxpayers to collect delinquent accounts or
secure unfiled returns.
5
  Business Systems Modernization processes and procedures are documented within the Enterprise Life Cycle. See
Appendix V for an overview of the Enterprise Life Cycle.
6
  A Request for Quotation contains detailed information regarding the award fee, performance incentive structure,
and nonperformance penalty process.
7
  The Private Debt Collection Request for Quotation Outlines Adequate Procedures and Controls (Reference
Number 2005-10-156, dated September 2005).
                                                                                                             Page 2
                    The Alternatives for Designing and Developing the Filing and
                        Payment Compliance Project Should Be Revalidated



Exhibit 300 and specific management plans. However, we reduced the scope of this audit
because of delays encountered while the IRS and a previous contractor attempted to locate
adequate supporting documentation for the Exhibit 300. As a result, we concentrated solely on
determining whether the IRS had adequate supporting documentation for the Exhibit 300.
This audit was conducted while changes were being made at the project level, including a shift in
the schedule due to a contract protest. Any changes that have occurred since we concluded our
analyses in September 2005 are not reflected in this report. As a result, this report may not
reflect the most current status of the F&PC project.
This audit was performed at the Business Systems Modernization Office and PRIME contractor8
facilities in New Carrollton, Maryland, during the period March through September 2005. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




8
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                        Page 3
                    The Alternatives for Designing and Developing the Filing and
                        Payment Compliance Project Should Be Revalidated




                                     Results of Review

The Internal Revenue Service Has Made Progress in Implementing the
First Release of the Filing and Payment Compliance Project

Since the passage of the American Jobs Creation Act of 2004, the IRS has made strides to
reactivate the F&PC project. For example, IRS management has approved the first
F&PC project subrelease to move into the testing phase. In addition, the IRS prepared a cost
estimate for future subreleases and selected an alternative for designing and developing the
F&PC project.

The IRS has made progress in implementing the first release of the F&PC project

The IRS has unconditionally approved the system and physical design9 of subrelease 1.1 of the
F&PC project and authorized the project team to test the system and prepare for deployment.
This is significant because we have previously expressed concern the IRS was conditionally
approving projects to move forward even though documentation had not been completed and
approved.10 The project team is currently testing subrelease 1.1 for deployment in January 2006,
with the first delinquent tax cases being forwarded to private collection agencies in the summer
of 2006.
While working toward completing subrelease 1.1, the IRS is also initiating activities for
subreleases 1.2 and 1.3. For example, the IRS has prepared an Independent Government Cost
Estimate (IGCE) for subreleases 1.2 and 1.3. The purpose of an IGCE is to provide an
independent and realistic cost estimate that can be compared with the contractor’s proposed cost.
We found the IGCE to be logically prepared, including reasonable time periods and required
skill sets. This is significant because we previously reported IRS officials did not routinely
prepare IGCEs.11 Additionally, the IRS has selected a contractor for subreleases 1.2 and 1.3.




9
  See Appendix V for an overview of the Enterprise Life Cycle.
10
   Enhancements to the Internet Refund Project Need to Be Completed to Ensure Planned Benefits to Taxpayers Are
Realized (Reference Number 2003-20-053, dated February 2003).
11
   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
                                                                                                        Page 4
                    The Alternatives for Designing and Developing the Filing and
                        Payment Compliance Project Should Be Revalidated



The IRS has identified what it considers to be the best alternative for the
F&PC project

Twice a year, the Office of Management and Budget (OMB) requires Federal Government
agencies to complete an Exhibit 300 for each major information technology investment. The
OMB uses the Exhibit 300 to allocate funds for information technology investments. In addition,
agencies use the Exhibit 300 to request funds, monitor the progress of projects, and improve
management decision making related to information technology investments. The Alternatives
Analysis is a key component of the Exhibit 300. It provides estimated cost and benefit
information on viable alternatives to assist management in determining the most effective
approach for a project. The F&PC project’s draft Exhibit 300 dated June 2005 documents the
following alternatives as the most viable solutions for the project:
     •   Alternative 1: Implement commercially available software to improve collection
         processes, and contract with private collection agencies to pursue delinquent taxes.
     •   Alternative 2: Modify the current processing environment.
     •   Alternative 3: Obtain an additional 1,600 Full-Time Equivalents (FTE)12 to work
         collection cases.
The IRS used previous Collection Contract Support and F&PC project information, as well as a
recent study, to compile the estimated costs, benefits, and financial indicators for each alternative
and to identify the best solution for the F&PC project. It documented the analysis in the draft
Exhibit 300 for the project. While the narrative and summary data contained in the draft
Exhibit 300 support the IRS’ decision, the IRS could not provide detailed support for most of the
cost and benefit information in the Alternatives Analysis section of the draft Exhibit 300.


The Internal Revenue Service Could Not Provide Adequate
Documentation to Support Its Decision to Purchase Commercially
Available Software

The Exhibit 300 is used by Federal Government agencies to request funds, monitor the progress
of projects, and improve management decision making related to information technology
investments. Because the Exhibit 300 is used to guide decision making, the IRS should obtain
and maintain reliable and timely information to support the Exhibit 300. As part of the draft
Exhibit 300, the Alternatives Analysis for the F&PC project provides estimated cost and benefit


12
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For Fiscal Year 2005, 1 FTE was equal to 2,088 staff hours.
                                                                                                        Page 5
                      The Alternatives for Designing and Developing the Filing and
                          Payment Compliance Project Should Be Revalidated



information on three viable alternatives selected by the IRS. The IRS used these estimated costs
and benefits for each alternative to develop financial indicators, such as net present value13 and
return on investment. 14 The IRS then identified the best alternative for the F&PC project from
these indicators. Based on the estimated costs, benefits, and financial indicators included in the
draft Exhibit 300, the IRS decided purchasing commercially available software (Alternative 1)
was the best solution for designing and developing the F&PC project.
We could not verify the IRS’ decision because documentation was not always accurate,
complete, and timely. Specifically, spreadsheets detailing cost and benefit calculations for each
of the three alternatives contained several errors, the results of a recent study were incomplete,
and the cost and benefit information used to prepare the draft Exhibit 300 was outdated and
could not be supported.

Spreadsheets used to prepare the draft Exhibit 300 contained several errors

The IRS and its contractors created spreadsheets to calculate total estimated costs and benefits
for all three alternatives included in the draft Exhibit 300, as well as cash flow,15 net present
value, discounted payback period,16 internal rate of return,17 and return on investment for each
alternative. However, we identified several errors in the spreadsheets used to prepare the draft
Exhibit 300. In total, the errors included in the spreadsheets understated the net present value for
1 alternative by $1.338 billion and overstated the net present value for another alternative by
$8 million. Figure 2 shows the errors identified for Alternatives 1 and 2 for the F&PC project.




13
   Net present value is a capital budgeting method that considers all discounted cash flows throughout the life cycle
of projects, allowing management to identify projects that have the greatest monetary returns.
14
   Return on investment is a measure that indicates the number of dollars saved from each dollar spent.
15
   Cash flow is the inflow (benefits) and outflow (costs) of funds.
16
   Discounted payback period is the length of time required for discounted cash flows to equal the initial investment
(cost).
17
   Internal rate of return is the interest rate that makes net present value of all cash flow (benefits minus costs) equal
zero.
                                                                                                                  Page 6
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated




       Figure 2: Errors Identified for Alternatives 1 and 2 for the F&PC Project


                                       Draft Exhibit 300            TIGTA
          Financial Indicator                                                               Difference
                                       Dated June 2005             Calculation
       Alternative 1
           Net Present Value              $ 100 million           $ 1.438 billion         $ 1.338 billion
         Internal Rate of Return               20%                     420%                    400%
          Discounted Payback
                                             8 years                  3 years                 5 years
                Period
       Alternative 2
           Net Present Value              $ -89 million            $ -97 million            $ -8 million

      Source: Draft Exhibit 300 for the F&PC project and our analysis of IRS spreadsheets used to calculate
      financial indicators.

Management Action: In July 2005, we reported this issue to Business Systems Modernization
Office officials, who agreed with our conclusion and revised the spreadsheets. These revisions
significantly changed the financial indicators used to identify the best alternative for the
F&PC project, and they added to the benefits of the chosen alternative. Therefore, the revised
financial indicators still support the IRS’ decision that Alternative 1 is the best solution for the
F&PC project. Because the revisions were made near the end of our audit work, we did not have
the opportunity to review the documentation in detail. However, we did note the IRS had not
only made changes based on the errors we identified, but it had also made changes to its
methodology for calculating benefits.18 Therefore, the figures we present as miscalculations in
Figure 2 reflect only the errors we identified in the June 2005 draft Exhibit 300. Since the IRS
revised the spreadsheets during our audit, we are making no additional recommendations in this
area.




18
  In response to a preliminary version of this report, the IRS stated the preparers of the draft Exhibit 300 made a
conscious business decision in some instances to not include benefits that may be viewed by outsiders as unrealistic
for the chosen alternative. A conservative approach was taken in order to avoid potential overstatement of the
benefits. The conservative approach was determined to be preferable to creating a net present value number that
may be viewed as unrealistic, or could create questions around the supportability of the number for the long-term.
                                                                                                             Page 7
                    The Alternatives for Designing and Developing the Filing and
                        Payment Compliance Project Should Be Revalidated



The results of a recent study were incomplete

 From December 2004 through February 2005, the IRS and its contractors conducted a study
 designed to revalidate the decision the IRS had made during previous projects to purchase
 commercially available software for the F&PC project. As part of the study, the IRS considered
 whether to purchase commercially available software (buy solution) or to modify the current
 IRS processing systems (build solution). The IRS planned to base the revalidation on estimated
 costs and benefits reported from previous projects and current information provided by the
 Information Technology Services (ITS) organization and the software vendors.
 However, the ITS organization did not provide all the information needed to complete the study.
 Specifically, the ITS organization did not provide development costs for the build solution or an
 assessment of the number of F&PC project business requirements that could be met in the
 current processing environment. Without complete information related to the build solution, the
 IRS cannot adequately compare the two alternatives to identify the best solution for the project.

The IRS could not provide adequate documentation to support most of the
estimated costs and benefits included in the draft Exhibit 300

To determine if the IRS had support for the estimates included in the draft Exhibit 300 for the
F&PC project, we reviewed the supporting documentation for 93 percent of the costs and
benefits for Alternatives 1 and 2 in the draft Exhibit 300. We did not review the estimated cost
and benefit documentation for Alternative 3 because it was not included in the President’s budget
and it was the least cost beneficial of the three alternatives.
We have previously reported the IRS was not always able to provide adequate documentation to
support project decisions.19 Based on our previous findings, we recommended the Chief
Information Officer hold project managers accountable to ensure all sections of the Exhibit 300
are consistent, accurate, complete, and supported by documentation.
While the IRS responded it would make project managers accountable for all data contained in
their Exhibit 300s, we determined the documentation provided as support for 87 percent of the
costs and benefits we reviewed ($16.1 billion of $18.5 billion) did not provide enough detail to
verify the reliability of the information in the draft Exhibit 300. Figure 3 shows the amounts of
documentation considered as adequate and inadequate support.20



19
   The Department of the Treasury’s HR Connect Human Resources System Was Not Effectively Implemented
(Reference Number 2005-10-037, dated February 2005) and Business Cases for Information Technology Projects
Need Improvement (Reference Number 2005-20-074, dated April 2005).
20
   See Appendix VI for more information related to the sample selection and the sample results.
                                                                                                     Page 8
                  The Alternatives for Designing and Developing the Filing and
                      Payment Compliance Project Should Be Revalidated




           Figure 3: Reliability of Supporting Documentation (in Billions)




                                               $2.4 , 13%                  Adequate Support
                                                                           Inadequate Support
                             $16.1 , 87%




          Source: Our analysis of supporting documentation for the draft F&PC project Exhibit 300.

The lack of detailed supporting documentation occurred because the IRS did not obtain the
information from the PRIME contractor in 2001 and 2002 when the PRIME contractor originally
prepared most of the cost and benefit estimates included in the draft Exhibit 300. In addition, the
PRIME contractor no longer has the supporting documentation, and the IRS and its current
contractors have not updated the original 2001 and 2002 estimates.
If the Exhibit 300 does not contain reliable and timely information, Federal Government officials
and the IRS may be unable to rely on the Exhibit 300 to make appropriate business decisions for
F&PC project planning, budgeting, acquisition, and management activities. Further, the IRS
may have decided to move forward with commercially available software for the F&PC project
based on unreliable information.


Recommendation
Recommendation 1: The Chief Information Officer should revalidate the Alternatives
Analysis, develop and maintain adequate documentation to support the IRS’ decision to purchase
commercially available software, and revise the Exhibit 300, if warranted. As part of the
revalidation process, the IRS should perform a quality review of all supporting documentation
for the Exhibit 300 to ensure the reliability of the documentation.



                                                                                                     Page 9
          The Alternatives for Designing and Developing the Filing and
              Payment Compliance Project Should Be Revalidated



Management’s Response: The Chief Information Officer agreed with our
recommendation. An outside contractor will perform a revalidation of the Alternatives
Analysis, and the IRS and a contractor will perform a quality review of supporting
documentation of this analysis and the Exhibit 300. In addition, the IRS has established a
Vision and Strategy team that will assess its future modernization collection strategy. If
the results show a change in direction, the F&PC project team will modify its approach to
completing the Alternatives Analysis.




                                                                                  Page 10
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated



                                                                                                  Appendix I

           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) had adequate justification for the alternative1 selected for the Filing and Payment
Compliance (F&PC) project. To accomplish this objective, we:
     I.   Determined whether the project team had an adequate Alternatives Analysis included in
          the Office of Management and Budget Capital Asset Plan and Business Case
          (Exhibit 300).
    II.   Determined whether the IRS had adequate support for the estimated costs and benefits of
          the project listed in the Exhibit 300. We accomplished this subobjective by reviewing the
          supporting documentation for 93 percent of the costs and benefits for Alternatives 1 and 2
          in the draft Exhibit 300. This sample was selected judgmentally by choosing the
          estimated costs and benefits with the highest dollar amounts. We did not review the
          estimated cost and benefit documentation for Alternative 3 because it was not included in
          the President’s budget and it was the least cost beneficial of the three alternatives. The
          total population of estimated costs and benefits included in the Exhibit 300 was
          $20.9 billion. We used a judgmental sample because we did not plan to project the
          results.2
III.      Determined whether the IRS and its contractors provided all end deliverables for a recent
          study.3
IV.       Determined whether the IRS obtained an Independent Government Cost Estimate for the
          task related to subreleases 1.2 and 1.3.
Our initial audit plan included audit steps designed to determine whether F&PC project officials
followed critical processes established to ensure the project’s success (e.g., configuration and
risk management, requirements development, and performance tracking). However, we reduced
the scope of this audit due to delays encountered while the IRS and a previous contractor
attempted to locate adequate supporting documentation for the Exhibit 300. As a result, we
concentrated solely on determining whether the IRS had adequate justification for the alternative
selected for the F&PC project.

1
  The IRS conducted studies to identify and evaluate several possible solutions to select the best alternative for
designing and developing the project.
2
  See Appendix VI for more information related to the sample selection and the sample results.
3
  The purpose of the recent study, conducted by IRS and contractor personnel, was to assess and analyze the overall
F&PC project release schedule, update the Exhibit 300, and provide analysis on the “build” vs. “buy” approach.
                                                                                                          Page 11
                 The Alternatives for Designing and Developing the Filing and
                     Payment Compliance Project Should Be Revalidated



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
James A. Douglas, Lead Auditor
Mark K. Carder, Senior Auditor
Suzanne M. Noland, Auditor




                                                                                     Page 12
                The Alternatives for Designing and Developing the Filing and
                    Payment Compliance Project Should Be Revalidated



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 13
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Reliability of Information – Potential; $1.346 billion (see page 5).

Methodology Used to Measure the Reported Benefit:

Twice a year, the Office of Management and Budget requires Federal Government agencies to
complete a Capital Asset Plan and Business Case (Exhibit 300) for each major information
technology investment. The Alternatives Analysis is a key component of the Exhibit 300. It
provides estimated cost and benefit information on viable alternatives to assist management in
determining the most effective approach for a project. The Internal Revenue Service (IRS)
identified and evaluated three alternatives to select the best solution for the Filing and Payment
Compliance (F&PC) project. The IRS decided the best solution for the project was to purchase
commercially available software.
While the information contained in the draft Exhibit 300 supports the IRS’ decision, we could
not verify the decision because documentation was not always accurate, complete, and timely.
Specifically, spreadsheets detailing cost and benefit calculations for each of the three alternatives
contained several errors. In total, the errors included in the spreadsheets understated the net
present value1 for 1 alternative by $1.338 billion and overstated the net present value for another
alternative by $8 million. In July 2005, we reported this issue to Business Systems
Modernization Office officials, who agreed with our conclusion and revised the spreadsheets.
These revisions significantly changed the financial indicators used to identify the best alternative
for the F&PC project and they added to the benefits of the chosen alternative. Therefore, the
revised financial indicators still support the IRS’ decision that Alternative 1 is the best solution
for the F&PC project. Because the revisions were made near the end of our audit work, we did

1
 Net present value is a capital budgeting method that considers all discounted cash flows throughout the life cycle
of projects, allowing management to identify projects that have the greatest monetary returns.
                                                                                                           Page 14
                     The Alternatives for Designing and Developing the Filing and
                         Payment Compliance Project Should Be Revalidated



not have the opportunity to review the documentation in detail. However, we did note the IRS
had not only made changes based on the errors we identified, but it had also made changes to its
methodology for calculating benefits.2 Therefore, the figures we present as miscalculations
reflect only the errors we identified in the June 2005 draft Exhibit 300.

Type and Value of Outcome Measure:

•   Reliability of Information – Potential; $16.1 billion (see page 5).

Methodology Used to Measure the Reported Benefit:

To determine if the IRS had support for the estimates included in the draft Exhibit 300 for the
F&PC project, we reviewed the supporting documentation for 93 percent of the costs and
benefits for Alternatives 1 and 2 in the draft Exhibit 300. We did not review the estimated cost
and benefit documentation for Alternative 3 because it was not included in the President’s budget
and it was the least cost beneficial of the three alternatives. We determined the documentation
provided as support for 87 percent of the costs and benefits we reviewed ($16.1 billion of
$18.5 billion) did not provide enough detail to verify the reliability of the information in the draft
Exhibit 300. The lack of detailed supporting documentation occurred because the IRS did not
obtain the information from the PRIME contractor3 in 2001 and 2002 when the PRIME
contractor originally prepared most of the cost and benefit estimates included in the draft
Exhibit 300. In addition, the PRIME contractor no longer has the supporting documentation, and
the IRS and its current contractors have not updated the original 2001 and 2002 estimates.4




2
  In response to a preliminary version of this report, the IRS stated the preparers of the draft Exhibit 300 made a
conscious business decision in some instances to not include benefits that may be viewed by outsiders as unrealistic
for the chosen alternative. A conservative approach was taken in order to avoid potential overstatement of the
benefits. The conservative approach was determined to be preferable to creating a net present value number that
may be viewed as unrealistic, or could create questions around the supportability of the number for the long term.
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
4
  See Appendix VI for more information related to the sample selection and the sample results.
                                                                                                           Page 15
                      The Alternatives for Designing and Developing the Filing and
                          Payment Compliance Project Should Be Revalidated



                                                                                                    Appendix V

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.


ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
    •    Life-Cycle Processes, which are organized into phases and subphases and which address
         all domains of business change.
    •    Management Processes, which are organized into management areas and which operate
         across the entire life cycle.


1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 16
                                    The Alternatives for Designing and Developing the Filing and
                                        Payment Compliance Project Should Be Revalidated



                                                     Enterprise Life-Cycle Processes



                                    IRS Governance and Investment Decision Management
  Management




                                             Program Management and Project Management

                                    Architectural Engineering / Development Coordination

                                                     Management Support Processes


                                                                                                  Business Processes




                                                                                                                           Operations & Support
                                                                                                          Applications
                Vision & Strategy




                                                      Development
                                      Architecture




                                                                                  Deployment
                                                                    Integration
  Life Cycle




                                                                                                                  Data


                                                                                               Organizational Change


                                                                                               Technical Infrastructure


                                                                                               Facilities Infrastructure


   Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
         •     Vision and Strategy - This phase establishes the overall direction and priorities for
               business change for the enterprise. It also identifies and prioritizes the business or system
               areas for further analysis.


                                                                                                                                          Page 17
                 The Alternatives for Designing and Developing the Filing and
                     Payment Compliance Project Should Be Revalidated



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.


Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its


                                                                                            Page 18
                  The Alternatives for Designing and Developing the Filing and
                      Payment Compliance Project Should Be Revalidated



       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.


Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.




                                                                                          Page 19
              The Alternatives for Designing and Developing the Filing and
                  Payment Compliance Project Should Be Revalidated



•   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
    leading up to Milestone 3, the major components of the business solution are analyzed
    and designed. A baseline business case is also produced. The primary decision at
    Milestone 3 is to accept the logical system design and associated plans and to authorize
    funding for development, test, and (if chosen) pilot of that solution.
•   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
    In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
    activities are separated by two checkpoints. Activities leading up to Milestone 4A
    involve further requirements definition, production of the system’s physical design, and
    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                        Page 20
                    The Alternatives for Designing and Developing the Filing and
                        Payment Compliance Project Should Be Revalidated



                                                                                             Appendix VI

                                        Sample Results

The draft Office of Management and Budget Capital Asset Plan and Business Case (Exhibit 300)
included estimated costs and benefits of $20.9 billion, from which the Treasury Inspector
General for Tax Administration (TIGTA) selected and reviewed a judgmental sample of
$18.5 billion. Table 1 presents the results from our review. We concluded the documentation
provided as support for 87 percent of the sample population ($16.1 billion of $18.5 billion) was
inadequate because the documentation did not provide enough detail to verify the reliability of
the information in the draft Exhibit 300.


                                       Table 1: Sample Results

                                                                                  TIGTA Conclusion
                                                                                     (in millions)
                                                                                Adequate     Inadequate
                                                              Amount (in        Support        Support
           Sample Item (Cost/Benefit)                          millions)        Provided      Provided
 Alternative 1
 Program Staff (Acquisition Cost)                                 $69                                $69
 Contract Services (Acquisition Cost)                             $131                               $131
 Other (Acquisition Cost)                                          $16                                $16
 Hardware (Maintenance Cost)                                       $27                                $27
 Increased Collection Dollars                                   $15,400           $2,400           $13,000
 Cost Avoidance                                                  $2,365                             $2,365
 Alternative 2
 Program Staff (Acquisition Cost)                                 $52                                $52
 Contract Services (Acquisition Cost)                             $31                                 $31
 Equipment (Maintenance Cost)                                    $171                                $171
 Cost Avoidance                                                  $246                                $246
                                                 Totals:        $18,508           $2,400           $16,108
                                            Percentages:                          13.0%             87.0%

Source: TIGTA analysis of Exhibit 300 supporting documentation provided by Internal Revenue Service officials.




                                                                                                        Page 21
     The Alternatives for Designing and Developing the Filing and
         Payment Compliance Project Should Be Revalidated



                                                  Appendix VII

Management’s Response to the Draft Report




                                                             Page 22
The Alternatives for Designing and Developing the Filing and
    Payment Compliance Project Should Be Revalidated




                                                        Page 23
